                Testimony of

               Ann C. Eilers
    Principal Assistant Inspector General
           For Audit and Evaluation

        U.S. Department of Commerce


                 before the

    House Energy and Commerce Committee

Subcommittee on Communications and Technology


     Is the Broadband Stimulus Working?


              February 27, 2013




                      1
Chairman Walden, Ranking Member Eshoo, and Members of the Subcommittee:


I appreciate the opportunity to testify today about our continued oversight of the Broadband
Technology Opportunities Program (BTOP), as well as the challenges the National
Telecommunications and Information Administration (NTIA) faces in its oversight of BTOP
projects as they are completed and the grant awards closed out.

The American Recovery and Reinvestment Act of 2009 (Recovery Act), passed four years ago
this month, provided NTIA approximately $4.7 billion to establish BTOP. This competitive grant
program was established to provide funds for deploying broadband infrastructure in unserved and
underserved areas of the United States, enhance broadband capacity at public computing
centers, improve access to broadband services for public safety agencies, and promote
sustainable broadband adoption. BTOP awards were made in three major areas:
   •   program infrastructure (comprehensive community infrastructure, or CCI), to provide
       institutions such as schools, libraries, and medical facilities with internet connectivity,
       including seven grant awards, totaling approximately $382 million, targeting 700
       megahertz (MHz) interoperable public safety wireless networks;

   •   public computing centers (PCCs), to establish new public computer facilities or upgrade
       existing ones to provide broadband access to the general public or specific populations
       such as low-income individuals, the unemployed, seniors, children, minorities, and
       people with disabilities; and
   •   sustainable broadband adoption (SBA), to promote broadband Internet usage and adoption,
       including among specific populations traditionally underserved by this technology.


NTIA also administers the State Broadband Initiative Program that supports the twice yearly
update of the National Broadband Map, a searchable map of broadband availability.
Table 1 provides a summary of BTOP funding with these and other categories:




                                                 2
Table 1. BTOP Funding
                                                  No. of          Actual
Category
                                                  Awards         (millions)

CCI                                                      117          $3,348

State Broadband Initiative Program                        56             278

SBA                                                       43             250

PCC                                                       65             199

Rescission                                                               302

Othera                                                                   147

Cancelled, modified, or terminated awards                                171

                                       Total                         $4,695

Source: OIG, based on NTIA data
a
  Includes transfer to OIG, transfer to Federal Communications Commission, and NTIA
administrative expenses (figures have been rounded).

At the conclusion of the BTOP award process on September 30, 2010, NTIA had awarded 233
grants. As of December 31, 2012, the total number of BTOP grants decreased from 233 to 225
due to grant cancellations, modifications, and terminations, which resulted in approximately
$171 million returned to the U.S. Department of the Treasury. Most of the awards are in CCI
projects (see table 1).

The Recovery Act also established a central role for Offices of Inspector General in monitoring
their agencies’ use of funds to prevent fraud, waste, and abuse. To date, our oversight efforts
have (1) assessed the establishment, implementation, and program operations of BTOP and (2)
reviewed specific issues with some individual awards. This includes 10 published products and
44 recommendations developed to improve the administration of BTOP and monitoring of
approximately $4 billion in grant awards. We have also provided training to NTIA and grant
recipients on the need for compliance with terms of the award. Our nonfederal audit review of
single and program-specific audit reports has identified audit findings and questioned costs with
BTOP awards. Since our testimony on May 16, 2012, to this subcommittee, we have reported on
BTOP grantees’ matching share, NTIA’s management and oversight of its contract for BTOP
administration, subrecipient monitoring, and the review of a CCI award to West Virginia.

We currently have two BTOP review engagements in process, including a review of BTOP
equipment and an audit of NTIA’s closeout of its awards. (Please see appendix for further
details.) Further, we have established procedures to closely monitor, follow up on, and analyze
trends for Hotline complaints. The Hotline, available online or by telephone, provides
stakeholders with a fast and—should they wish—anonymous or confidential means to report
waste, fraud, and abuse and to hold BTOP awardees and NTIA accountable for federal dollars.
These represent our most immediate efforts to anticipate and address NTIA’s ongoing

                                                     3
challenges in administering the program.

My testimony will address the following challenges that we believe NTIA faces:
   1. Some BTOP projects are at risk of not being completed by September 30, 2013;

   2. Additional monitoring of equipment may be needed;

   3. Findings from OIG and nonfederal audits require close attention;

   4. NTIA needs to address challenges associated with the First Responder Network
      Authority (FirstNet) program and BTOP public safety projects that were affected by its
      establishment; and

   5. Effective oversight remains essential as awards are closed out.
1. Some BTOP Projects Are at Risk of Not Being Completed by September 30,
   2013

In our May 2012 testimony, we reported that slow Recovery Act spending represented a
challenge. Although overall BTOP disbursement increased from 42 percent as of April 30, 2012,
to 67 percent as of December 31, 2012, 27 grants continue to lag, with reported spending at
less than 50 percent of their available grant funds (see table 3 below). For all awards, more than
$1.0 billion had not been disbursed at the close of calendar year 2012. Figure 1 below provides a
summary of BTOP disbursements through December 31, 2012.




                                                4
Figure 1. BTOP Disbursements by Project Type (as of December 31, 2012)




 Source: U.S. Department of the Treasury, Automated Standard Application for Payment


The July 2009 and January 2010 notice of funds availability (NOFA) required that all BTOP
BTOP grants be awarded by September 30, 2010 and projects be fully completed within 3 years
of the grant issuance. Since the first BTOP grants were awarded in December 2009, the
forecasted completion dates ranged from November 2012 to September 2013. However, as of
February 1, 2013, extensions to complete projects had been requested for more than 35
awards—many until September 30, 2013.

Further, on September 15, 201l, the Office of Management and Budget (OMB) issued
memorandum M-11-34, stating that federal agencies “should work collaboratively and
transparently with recipients of discretionary Recovery Act grants to accelerate the spending
rate for all awarded funds while still achieving core programmatic objectives.” M-11-34 also
directs federal agencies to “establish aggressive targets, consistent with programmatic objectives,
for outlaying remaining funds [and] take steps to complete Recovery Act projects by September
30, 2013.” While federal agencies were directed to “accelerate the spending rate for all
awarded funds while still achieving core programmatic objectives,” M-11-34 does allow for
deadline extension waivers where a project must undergo complex environmental review, the
long-term nature of programs prevent acceleration, contractual commitments prevent adjusting
the timeline for spending or other special circumstances exist. NTIA has informed us that it has
requested such a waiver for BTOP projects.

Table 2 provides additional details on the 27 projects with spending levels at 50 percent or less
as of December 31, 2012. With approximately 7 months of the 3-year grant life remaining,
those projects that have spent 50 percent or less of their grants present a higher risk of not


                                                     5
meeting their spending deadlines.
Table 2. BTOP Grants with Spending Less Than
or Equal to 50 Percent (as of December 31, 2012)
                              Federal    Portion of
                Number of
Project Type                   Funds      Type's
                 Grants
                             (millions) Total Grants

CCI                         21              $720.2          18%

SBA                         4                 $15.4          9%

PCC                         2                  $8.4          3%

Total                       27             $744.0           12%

Source: U.S. Department of the Treasury, Automated Standard Application
for Payment



Spending delays result from multiple causes. For example, special award conditions included in
CCI awards require that an environmental assessment (EA) conclude prior to the start of
construction. Additionally, in its September 2012 Quarterly Program Status Report, 1 BTOP
reported to Congress that local permitting and agreements for rights-of-way and other land
easements, utility pole agreements and make-ready work, and other predeployment activities
have caused implementation schedule delays for some grant awards. Also, passage of legislation
that established an interoperable nationwide public safety network (discussed later) delayed
seven public safety projects because assessments of the legislation’s effect on their
implementation became necessary.

2. Additional Monitoring of Equipment Procurement May Be Needed
With a complex grant portfolio and recipient profile, NTIA’s continual monitoring of the
program and technological challenges is essential to ensuring that approximately $4 billion in
federal funds are safeguarded. It is important to verify that the equipment procured under
BTOP is appropriate for its intended use; complies with market standards; and has been tested
for functionality and properly implemented and inventoried. In December 2012, OIG initiated
an equipment review of a sample of BTOP projects. The objectives of this audit include
verifying (1) whether NTIA has adequate internal controls in place to monitor equipment
procurements and federal interest, (2) whether grantees have appropriately acquired, tested,
and implemented the most effective equipment, and (3) whether grantees are on track to
complete the projects on time and achieve program goals. As we discussed in our May 2012
testimony, our November 2011 BTOP award monitoring report provided recommendations to
NTIA for improving internal controls over monitoring activities. NTIA submitted a responsive
action plan to our report and took a number of corrective actions. NTIA committed to


1
    National Telecommunications and Information Administration, March 2012. Broadband Technology Opportunities
    Program (BTOP) Quarterly Program Status Report. Washington, DC: NTIA.

                                                        6
strengthen its procedures for following up on inconsistent performance reporting, documenting
identified and resolved grant implementation issues; and strengthening site visits by verifying
certain documentation (i.e., grant match). Also, NTIA committed to working closely with
recipients that are at risk of not completing projects on time.

In our January 23, 2013, response to the June 4, 2012, congressional request to review the
BTOP grant awarded to the Executive Office of the State of West Virginia (EOWV), OIG found
several issues associated with the implementation of the award. 2 We concluded that EOWV:

    •   had not demonstrated that BTOP funds used to purchase routers were spent cost-
        effectively,

    •   had not effectively managed and tracked router inventory, and

    •   did not administer agreements with community anchor institutions (CAIs) for the
        receipt of federal property.

Specifically, EOWV did not perform a study to determine the appropriate size router that
would most effectively and efficiently meet the individual CAI needs. As a result, it is uncertain
whether the selected approach was the most cost-effective. Savings could have been achieved if
less expensive routers had been purchased for some locations. The issues we identified with
inventory and agreements for the receipt of federal property reflect concerns over the
accountability of purchased assets. The West Virginia legislative auditor also reported that
federal funds had been misspent on oversized routers.

3. Findings from OIG and Nonfederal Audits Require Close Attention

Our audits of cross-cutting issues affecting BTOP awards resulted in the issuance of reports
containing recommendations to strengthen grant match and subrecipient monitoring.

In June of 2012, we issued a report on whether NTIA has processes in place to monitor BTOP
recipient match and verify that match contributions meet federal administrative requirements.
We concluded that: (1) PCC and SBA grantees do not receive the same detailed match review
as CCI projects; (2) grantees permitted a contractor and a subrecipient to access cash
drawdowns through the U.S. Department of the Treasury; (3) grantees did not record the grant
match in the financial records; and (4) some grantees were behind schedule in contributing their
nonfederal match. Steps were needed to ensure that grant match requirements were met and
to guard against the unauthorized use of funds. NTIA submitted a responsive action plan to
address the report’s recommendations.
In January of 2013, we issued a report on the effectiveness of subrecipient monitoring for
BTOP. 3 We concluded that: (1) awards that had a vendor might not be properly classified, (2)

2
 On June 4, 2012, the Chairmen of the Subcommittee on Communications and Technology and Subcommittee
on Environment and the Economy requested the review.

3
 U.S. Department of Commerce, Office of Inspector General, January 2013. Proper Classification and Strengthened
Monitoring of Subrecipients Are Needed for the Broadband Technology Opportunities Program (OIG-13-013-A).

                                                       7
subrecipient monitoring plans were not in place or were inadequate, (3) subrecipient
agreements did not contain all required provisions, and (4) recipients were not reporting all
required information into FederalReporting.gov. Effective monitoring of subrecipients is
necessary to ensure that project costs are allowable, allocable, and reasonable: program goals
are achieved; and that Recovery Act transparency reporting requirements are met.

We also noted other matters not directly related to subrecipient monitoring that warrant
attention, including: (1) recipients might not complete projects on time, (2) recipients’ financial
information was not reconciled to the Recovery Act website, (3) vendors were not reviewed
for suspension and debarment, (4) not all vendor contracts were competed for BTOP grants,
and (5) recipients did not maintain vendor contracts.

Finally, our nonfederal audit review of single and program-specific audit reports identified
questioned costs and noncompliance concerning BTOP awards. 4 OIG also worked with NTIA to
develop a program-specific audit guide for BTOP award recipients that are for-profit entities.
The most common findings included noncompliance with (1) applicable policies or procedures
(either not having them or not following them), (2) cost principles for allowable costs, and (3)
reporting requirements (either deficient or late reports). Please see appendix for further
details.

4. NTIA Needs to Address Challenges Associated with the First Responder
   Network Authority (FirstNet) Program and Existing BTOP Public Safety
   Projects That Were Affected by Its Establishment

The passage of new legislation requiring NTIA to establish an interoperable nationwide public
safety broadband network (PSBN) while continuing to oversee BTOP places additional
requirements on NTIA, increasing program risk. As we continue to track the establishment of
FirstNet, its impact on key BTOP public safety projects should be closely monitored.

On February 22, 2012, Congress enacted the Middle Class Tax Relief and Job Creation Act of
2012 (P.L. 112-96), reallocating the D-block spectrum and $7 billion in funding to NTIA for the
establishment of PSBN. Specifically, the law requires the establishment of an independent
authority within NTIA called the First Responder Network Authority (FirstNet) to (1)
administer the D-block and existing public safety spectrum and (2) oversee the establishment
and deployment of the PSBN.

Several BTOP projects involve networks similar to FirstNet’s PSBN. As a result, our BTOP
oversight helps us anticipate issues and concerns that could potentially arise with FirstNet. We
have been closely following the progress of BTOP’s seven existing public safety grant awards
(totaling $382 million), having already reviewed the BayWEB grant in a report issued May 2011
and a memorandum issued in January 2012. These seven large, complex infrastructure projects

Washington, D.C.: Department of Commerce OIG.
4
 Nonfederal entities (i.e., states, local governments, tribes, colleges and universities, and nonprofit organizations)
that expend $500,000 or more in federal awards in a year are required to have these awards audited annually in
accordance with OMB Circular A-133. Commercial organizations that receive federal funds from the Department
are subject to award requirements as stipulated in the award document.

                                                          8
have faced multiple deployment challenges, resulting in slow awardees spending and a
subsequent halt:
    •   Adams County (Colorado) Communications Center, Inc. (ADCOM)

    •   City of Charlotte, North Carolina (CharMeck Connect)

    •   Executive Office of the State of Mississippi (MESHNet)

    •   Los Angeles Regional Interoperable Communications System (LA-RICS)

    •   Motorola, Inc. (in the San Francisco Bay area)

    •   New Jersey Department of Treasury

    •   New Mexico Department of Information Technology

Causes include delays in EAs, vendor selection, design modifications, establishment of
governance structure, and the partial suspension of these awards on May 11, 2012. Figure 2
depicts the federal fund amounts and the spending rates as of December 31, 2012, for these
projects.

Figure 2. Disbursement of BTOP Public Safety Grant Funds




Source: U. S. Department of the Treasury, Automated Standard Application for Payment


                                                     9
If the suspension from NTIA is lifted, FirstNet will integrate the progress achieved by the seven
public safety grantees into the PSBN.

Given the complexity and time requirements of PSBN, it has taken FirstNet several months to
fully establish itself and its rules and regulations. While FirstNet hires staff to handle its day-to-
day operations, it receives support from NTIA for establishment of its program guidelines. This
has put additional requirements on NTIA staff, which could negatively affect oversight of BTOP.

Since its establishment, the FirstNet board has held three meetings. Per the February 12, 2013,
meeting, the FirstNet board has informed the public that they have made site visits to each of
the seven BTOP public safety awards and are moving forward with issuing new spectrum leases
with each. Also, the board has made its recommendations to NTIA to lift its partial suspension,
so that the recipients can continue their long-term evolution (LTE) network build-out.

Several challenges remain for FirstNet in the establishment of PSBN, including:

   •   Integration of the seven BTOP grants into the PSBN. Despite the FirstNet board’s
       recommendations, NTIA has to be willing to lift the partial suspension and allow the
       projects to integrate into FirstNet/PSBN.

   •   Construction of a nationwide LTE network. Due to the size of this network, vendor
       participation, equipment readiness, and build-out will represent significant challenges.

   •   Ensure sufficient funding for build-out and sustenance of a truly nationwide network. The
       public safety customer base is a fraction of the commercial network customer base.
       Therefore, it will be challenging for FirstNet to ensure funding for its network without
       future congressional funding.

   •   Regional and statewide cooperation. Getting various state and local public safety agencies
       to cooperate with each other and truly realize the benefits of such a network could
       pose challenges, as was stated in our May 6, 2011.

With so much significant spending on public safety equipment procurement and deployment, it
is imperative to ensure that the equipment works and meets the intended BTOP objectives.
OIG continues to oversee NTIA efforts to ensure it can monitor grantees’ equipment
procurements.

5. Effective Oversight Remains Essential as BTOP Awards Are Closed Out

Finally, Mr. Chairman, we would like to update the Subcommittee on concerns we expressed at
our May 2012 testimony relating to funding of oversight. Section 1306 of the Dodd–Frank Wall
Street Reform and Consumer Protection Act requires that unobligated Recovery Act funds be
returned to the U.S. Department of the Treasury on December 31, 2012. On that date, OIG
had $4.8 million in unobligated oversight funds that OIG needed for continued oversight of
BTOP, in addition to approximately $600,000 for other ARRA oversight activities. OIG
requested and received a waiver from this provision for $4 million, to be divided between


                                                  10
BTOP and other ARRA oversight.

Our future BTOP oversight plan includes a combination of program audits and targeted reviews
of risky grants. In addition, we will continue investigating and resolving complaints of
wrongdoing made against BTOP award recipients, for which we have established a formal
complaint monitoring process. The number of complaints has increased over time, and it is
reasonable to expect that number to continue to go up as the program matures.

As of January 14, 2013, NTIA identified 15 awards as being currently in the closeout phase, with
an additional 55 scheduled to end within 90 days. Closeout procedures are actions performed
at the expiration of an award to ensure that all activities are complete and ensure that the
recipient has complied with applicable laws, regulations, OMB circulars, and grant terms and
conditions. Of those 55 grants, 26 have submitted a request to extend their performance
period to September 30, 2013. The risks associated with inadequate closeout processes include
the possibility that assets purchased with federal funds are not properly secured and that
unused funds are not promptly returned to the Treasury. Grant closeout procedures also
represent one of the final opportunities to detect unallowable uses of funds.


We have initiated an audit of grant closeout procedures to ensure adequate operations are in
place to effectively close out the BTOP grants as their period of performance comes to an
end. The audit objectives are to evaluate whether grant project closeout policies and
procedures established for BTOP are adequate to effectively administer closeout activities and
to assess whether closeout procedures are being followed as BTOP grants are closed.

Additionally, while OIG is not in a position to speak to the Administration’s budget request for
NTIA oversight, it is essential that NTIA receive sufficient funding for the oversight of BTOP. As
BTOP projects progress toward completion dates, NTIA must continue to monitor the awards.
Oversight will need to continue beyond September 30, 2013 (the target end date for the last of
the BTOP awards) to monitor (1) projects receiving extensions and (2) projects that have been
completed for which closeout procedures are being performed.

In conclusion, Mr. Chairman, for FY 2013 and beyond, BTOP continues to face challenges, in
the oversight of projects as they are being completed and grant awards are closed out. The
Subcommittee’s continued attention and oversight are important. For the Department to
ensure effective implementation of BTOP, especially in light of fulfilling OMB and legislative
requirements, OIG and NTIA will need Congress to continue your oversight efforts. This
concludes my prepared statement, and I will be pleased to respond to any questions you or
other Subcommittee members may have.




                                                11
Appendix
OIG BTOP-Related Testimony, Reports and Memorandums, Works in Progress,
and Training

OIG’s BTOP oversight efforts began immediately after passage of the Recovery Act. Our
ongoing monitoring activities include: tracking grant recipient spending, reviewing quarterly
progress reports submitted by recipients, attending BTOP biweekly meetings to learn updates
on program status, attending quarterly meetings with contractors providing program services,
reviewing single audit and program-specific audit reports (as well as complaints), and responding
to BTOP program office questions. Further, our outreach efforts have resulted in 53 total
training sessions, reaching more than 3,250 program staff and grant recipients with more than
3,500 total training hours. For further detail, see table below.


Table A. OIG Oversight of BTOP (2009-Current)

 Related Testimony
 Title (Number)                          Date                      Congressional Audience

                                                        Committee on Energy and Commerce
Broadband Loans and Grants
                                      May 16, 2012      Subcommittee on Communications and Technology
(OIG-12-026-T)
                                                        (U.S. House of Representatives)


Stimulus Oversight: An Update on
                                                        Committee on Science, Space, and Technology
Accountability, Transparency, and
                                    November 30, 2011   Subcommittee on Investigations and Oversight
Performance
                                                        (U.S. House of Representatives)
(OIG-12-012-T)

                                                        Committee on Energy and Commerce
ARRA Broadband Spending
                                    February 10, 2011   Subcommittee on Communications and Technology
(OIG-11-019-T)
                                                        (U.S. House of Representatives)




                                                 12
Related Reports and Memorandums
Title (Number)           Release Date                  Synopsis of Recommendations
                                               NTIA should:
                                                   • Review grants to ensure subrecipients are
                                                       properly classified and funds are appropriately
                                                       accounted for
                                                   • Work with recipients to ensure effective
                                                       monitoring mechanisms are in place and
                                                       reemphasize the importance of including BTOP
Proper Classification and
                                                       provisions in subsequent agreements
Strengthened Monitoring
                                                   • Notify recipients of the OMB M-0921
of Subrecipients Are
                            January 31, 2013           vendor/subrecipient reporting requirements and
Needed for the
                                                       ensure recipients understand what should be
Broadband Technology
                                                       reported as federal expenditures
Program (OIG-13-013-A)
                                                   • Encourage recipients to review vendors and
                                                       principals for suspension and debarment
                                                       throughout the life of the grant and promote
                                                       appropriate competition
                                                   • Communicate to recipients the importance of
                                                       maintaining vendor contracts

Letter to Representatives                      Results of our work:
Walden and Shimkus re:                             • EOWV should have had an adequate inventory
Review of NTIA’s BTOP                                   systems and agreements with CAIs for the router
Grant Award to the          January 23, 2013            equipment
Executive Office of the                            • EOWV should have done a detailed data rate
State of West Virginia                                  capacity study of each CAI, before signing up for a
(OIG-13-012-I)                                          one-size-fits-all router approach
Review of NTIA’s                                NTIA should:
Oversight of the Booz                               • Consider improving contract oversight controls :
Allen Hamilton Contract                               o invoice and payroll reconciliation
Supporting the Broadband    August 9, 2012            o closeout audit by the Defense Contract Audit
Technology Opportunities                                   Agency
Program
(OIG-12-031-M)




                                                13
                                                NTIA should:
                                                   • Develop and implement improved processes for
                                                       reviewing PCC and SBA grant match amounts
                                                   • Formally communicate the risk associated with
                                                       third-party cash drawdowns to all grant
                                                       recipients and stress the importance of increased
                                                       monitoring on their behalf when allowing third
                                                       parties to draw down grant funds from the
                                                       Treasury ASAP system
NTIA Needs Stronger                                • Implement program office controls to closely
Monitoring of BTOP                                     monitor ASAP drawdowns on a timely basis,
                              June 18, 2012            especially those grant recipients that have
Grant Recipients’ Match
(OIG-12-029-A)                                         delegated ASAP system access to third parties
                                                   • Communicate to recipients that match
                                                       expenditures must be supported and correctly
                                                       reflected in their financial records
                                                   • Work with NIST and NOAA grants officers to
                                                       provide NTIA with the BTOP grantees’ quarterly
                                                       financial status reports and monitor the
                                                       contribution trends and proportionality waiver
                                                       activity to ensure grantees are providing their
                                                       required match
Misrepresentations                              NTIA should:
Regarding Project                                  • “[M]ake a determination whether the
Readiness, Governance                                  corrective actions underway by the grantee and
Structure Put at Risk the                              political jurisdictions are sufficient to overcome
Success of the San                                     the defects in the initial application”
                             January 10, 2012
Francisco Bay Area                                 • “[With the Department,] gather lessons
Wireless Enhanced                                      learned from this award to employ on other
Broadband                                              BTOP and future grant programs”
(BayWEB) Project
(OIG-12-016-M)
                                                NTIA should:
                                                   • Take prompt steps to strengthen
                                                       federal program officers’ monitoring
                                                       efforts
                                                   • Verify source documentation as part of
NTIA Has an                                            its monitoring efforts
Established Foundation                             • Strengthen its monitoring tools’ internal
to Oversee BTOP                                        control capabilities
Awards, But Better          November 17, 2011      • Improve guidance for recipient
Execution of                                           match documentation during site
Monitoring Is Needed                                   visits
(OIG-12-013-A)                                     • Help recipients at risk of noncompliance with
                                                       award progress and completion requirements
                                                       to revise completion dates, request project
                                                       extensions, or rescope projects
                                                   • Incorporate continuous trend analysis into
                                                       its award monitoring process




                                                14
                                                 NTIA should:
                                                    • Ensure independent review of complaints
                                                        and document responses and results
                                                    • Develop policies and procedures for
                                                        timely response to complaints, including
Review of BTOP
                                                        the communication of issues with OIG
Award for the San
Francisco Bay Area                                  • Emphasize for BTOP staff the importance
                                May 6, 2011             of communication with the grants office
Wireless Enhanced
Broadband (BayWEB)                                      when responding to complaints
Project (OIG-11-024-I)                              • Ensure, when monitoring awards, that
                                                        equipment is valued at cost (consistent with
                                                        cost principles)
                                                    • Direct BTOP to promptly communicate
                                                        potential problems or deviations to the grants
                                                        officer
                                                 NTIA should:
                                                    • Manage the future lack of funding for BTOP by
Broadband Program Faces                                 developing alternative approaches to
Uncertain Funding, and                                  monitoring and oversight
NTIA Needs to Strengthen      November 4, 2010      • Ensure that agreements with other agencies,
Its Post-Award Operations                               manuals and guidance, training and
(OIG-11-005-A)                                          development, and monitoring procedures are
                                                        clearly documented and fully adhered to
                                                 NTIA should:
                                                    • Create a staffing plan that outlines the
                                                        necessary management resources and adjusts
                                                        to key positions lost
                                                    • Develop and implement documentation
NTIA Must Continue to                                   policies and procedures
Improve its Program                                 • Have in-house counsel document arising
Management and Pre-                                     program issues and opinions from the
                                April 8, 2010
Award Process for its
                                                        Department’s
Broadband Grants
                                                    • Office of General Counsel
Program (ARR-19842-1)
                                                    • Supplement reviewing staff to
                                                        address unforeseen delays
                                                    • Develop procedures for monitoring recipients
                                                        at risk of experiencing delays in completing
                                                        post- award NEPA requirements
NTIA Should Apply                                NTIA should:
Lessons Learned from                               • Seek to extend program office funding to ensure
Public Safety Interoperable                            proper oversight
Communications Program                             • Use joint peer reviews before making grant
to Ensure Sound                                        awards
                               March 31, 2009
Management and Timely                              • Complete a prompt environmental assessment of
Execution of $4.7 Billion                              BTOP
Broadband Technology
Opportunities Program
(ARR-19583)




                                                 15
    Nonfederal Audit Review ( 2/17/2009–2/20/2013)

           Audit Type             Reports        Total Number of Findings                Total Questioned Costsa
                                 Reviewed
    Single Audits                    59                       63                                                $2,220,000
    Program-Specific Audits          65                       91                                                $ 73,000
a
 Costs related to audits completed by independent public accountants. We work with NTIA grants officers to resolve these
issues, which can result in repayment.

     Related Works in Progress

     Subject                                                             Summary of Objectives
     Acquisition of Equipment for BTOP         Determine (1) whether NTIA has the personnel and processes in place
     Infrastructure Projects                   to effectively monitor grantees’ equipment acquisitions, including
                                               security, inventory control, and report submittals; (2) assess whether
                                               grantees have appropriately acquired, tested, and implemented the most
                                               effective equipment; and (3) evaluate whether grantees are on track to
                                               complete the BTOP projects on schedule and achieve project goals.
     BTOP Grant Closeout Procedures            Determine whether adequate closeout policies and operations have been
                                               established to effectively close out the approximately 230 BTOP awards
                                               and assess if closeout procedures are being followed as BTOP projects
                                               are completed and closed.


     Selected Trainings
                     Subject                         Date                                      Audience
     OIG oversight and reemphasis on the May 24, 2012                       BTOP grantees
     importance of effective subrecipient
     monitoring
     Project management, grant match, and October 6, 2011                   Grant recipients (mixed local, state,
     nonfederal audits                                                      nonprofit)
     State Broadband Initiative on common April 28, 2011                    NTIA staff; awardees
     audit findings and the need for strong
     recipient internal controls

     Webinar on importance of                   February 3, 2011            NTIA staff; awardees
     subrecipient monitoring and common
     issues with subrecipients
     Fraud prevention (identifying red flags    Various                     NTIA staff; awardees
     and providing tips to prevent fraud)




                                                             16
